IN THE SUPREME COURT OF THE UNITED STATES
No. 20-257
CHIPOTLE MEXICAN GRILL, PETITIONER
v.

MAXCIMO SCOTT, ET AL.
CERTIFICATE OF SERVICE

I, Wayne N. Outten, counsel for applicant and a member of the Bar of this Court, certify
that, on September 11, 2020, one copy of the Application for an Extension of Time Within Which
to File Respondent’s Brief in Opposition to Petition for a Writ of Certiorari in the above-captioned
case was sent, by third-party commercial carrier for delivery overnight and by electronic mail, to
the following counsel:
Kannon K. Shanmugam, Esq.
Paul, Weiss, Rifkind, Wharton & Garrison LLP

2001 K Street, NW Washington,
DC 20006
kshanmugam@paulweiss.com

I further certify that all parties required to be served have been served.

__________________
Wayne N. Outten

